No. 19-1025
In the

Supreme Court of the United States
__________________
THE CITY OF FERGUSON, MISSOURI,
Petitioner,
v.
KEILEE FANT, ET AL.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

__________________
THE CITY OF FERGUSON’S SUPPLEMENTAL
BRIEF IN SUPPORT OF ITS PETITION
FOR A WRIT OF CERTIORARI
__________________
RONALD A. NORWOOD
LEWIS RICE LLC
600 Washington Ave.
Suite 2500
St. Louis, MO 63101
(314) 444-7759
rnorwood@lewisrice.com

JOHN M. REEVES
Counsel of Record
REEVES LAW, LLC
3703 Watson Rd.
St. Louis, MO 63109
(314) 775-6985
reeves@reeves-law.org

Counsel for Petitioner
The City of Ferguson, Missouri
February 25, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. An interlocutory appeal lies from a denial of
sovereign immunity to protect the sovereign’s dignitary
interests. Under Fed.R.Civ.P. 19, a case may not
proceed in the absence of a required-entity sovereign’s
joinder, but rather must be dismissed. Merely
considering the lawsuit’s merits without the requiredentity sovereign is itself a violation of sovereign
immunity. A named, non-sovereign defendant has
standing to seek dismissal on these grounds, as a
means of vicariously protecting the required-entity
sovereign’s dignitary interests. The federal appellate
courts are divided over whether an interlocutory appeal
lies from a refusal to dismiss for failure to join a
required-entity sovereign.
To the extent the matter is a purely legal question,
does an interlocutory appeal lie from a refusal to
dismiss for failure to join a required-entity sovereign?
2. An absent, required-entity sovereign’s liability
cannot be litigated behind its back. In §1983 litigation
against municipalities, state law determines whether
the officials in question acted on behalf of a
municipality or the State, based on the functions at
issue. If the officials acted on behalf of the State, then
any unlawful policy or custom was one of the State, not
of the municipality.
If, in a §1983 lawsuit against a municipality, state
law vests final policymaking authority for the functions
at issue with a non-party state entity, does that render
the state entity a required-entity sovereign, thus
mandating the case’s dismissal under Rule 19?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. Teagan, like this case, was an indirect attack on
a state entity’s policies and customs under
McMillian without its participation. . . . . . . . . . . 2
B. Teagan, like this case, demonstrates why an
interlocutory appeal must lie from a refusal to
dismiss for failure to join a required-entity
sovereign. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
C. Teagan demonstrates that this is a recurring
problem of national importance warranting this
Court’s full review. . . . . . . . . . . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
APPENDIX
Appendix 1 Opinion and Concurring Opinions in
the United States Court of Appeals for
the Eleventh Circuit, No. 18-11060
Ziahonna Teagan v. The City of
McDonough, Georgia
(February 11, 2020) . . . . . Supp. App. 1

iii
TABLE OF AUTHORITIES
CASES
Alden v. Maine,
527 U.S. 706 (1999). . . . . . . . . . . . . . . . . . . . . . . 10
Fant v. City of Ferguson,
107 F.Supp.3d 1016 (E.D. Mo. 2015) . . . . . . . . . 10
Kickapoo Tribe v. Babbitt,
43 F.3d 1491 (D.C. Cir. 1995). . . . . . . . . . . . . . . . 5
McMillian v. Monroe Cnty.,
520 U.S. 781 (1997). . . . . . . . . . . . . . . . . . 2, 3, 4, 8
Microsoft v. Baker,
137 S.Ct. 1702 (2017) . . . . . . . . . . . . . . . . . . . . . . 8
Mine Safety App. Co. v. Forrestal,
326 U.S. 371 (1945). . . . . . . . . . . . . . . . . . . . 4, 5, 6
Mitchell v. Forsyth,
472 U.S. 511 (1985). . . . . . . . . . . . . . . . . . . . . . . . 8
Mohawk Ind., Inc. v. Carpenter,
558 U.S. 100 (2009). . . . . . . . . . . . . . . . . . . . . . . . 9
Provident Trades. Bank & Trust Co. v. Patterson,
309 U.S. 102 (1968). . . . . . . . . . . . . . . . . . . . . . . . 7
Republic of the Philippines v. Pimentel,
553 U.S. 851 (2008). . . . . . . . . . . . . . . . . . . passim
Siegert v. Gilley,
500 U.S. 226 (1991). . . . . . . . . . . . . . . . . . . . . . . . 8
Taylor v. Cnty. of Pima,
913 F.3d 930 (9th Cir. 2019). . . . . . . . . . . . . . . . . 4

iv
Teagan v. City of McDonough,
-- F.3d --, 2020 WL 624695 (11th Cir. Feb. 11,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Two Shields v. Wilkinson,
790 F.3d 791 (8th Cir. 2015). . . . . . . . . . . . . . . 4, 6
Wichita and Aff. Tribes of Ok. v. Hodel,
788 F.2d 765 (D.C. Cir. 1986). . . . . . . . . . . . . . . . 5
Wood v. Moss,
572 U.S. 744 (2014). . . . . . . . . . . . . . . . . . . . . . . . 7
STATUTES
42 U.S.C. §1983 . . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 11
RULES
Fed.R.Civ.P. 19. . . . . . . . . . . . . . . . . . . . . . . . . passim
Fed.R.Civ.P. 19(a)(1)(B)(i) . . . . . . . . . . . . . . . . . 5, 6, 8
Fed.R.Civ.P. 19(b) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 8
Sup.Ct.R. 15.8. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
Fed.R.Civ.P. advisory committee notes (1966) . . . . . 7
T.S. Eliot, The Hollow Men, (1925) . . . . . . . . . . . . . 10

1
INTRODUCTION
Two days before the City of Ferguson (“the City”)
filed its petition for a writ of certiorari, the Eleventh
Circuit published its opinion in Teagan v. City of
McDonough, -- F.3d --, 2020 WL 624695 (11th Cir.
Feb. 11, 2020). It is reproduced at Supp.App.1-31.
Pursuant to S.Ct.R. 15.8, the City files this
supplemental brief to bring the case to this Court’s
attention.
Teagan, a §1983 lawsuit, is a practical, concrete
example of a plaintiff attempting to litigate an absent,
required-entity sovereign’s liability behind its back
through an indirect attack on its policies and customs.
The plaintiff named a municipality as the only
defendant, alleging her constitutional rights were
violated by a municipal court. The Eleventh Circuit
affirmed the district court’s granting of summary
judgment to the city, finding that since the municipal
court, despite its formal title, was a state entity, the
city could not be liable for the alleged constitutional
violations under §1983. But in doing so, the Eleventh
Circuit also declared it was disturbed by the municipal
court’s actions, even though that court was never part
of the lawsuit and never had an opportunity to defend
its conduct, thus creating confusion and uncertainty
about the validity of its actions. This is a textbook
example of why, in such a situation, a lawsuit should
be dismissed under Fed.R.Civ.P. 19 and Pimentel,1 and
why an interlocutory appeal should lie from a refusal to
dismiss. The Eleventh Circuit’s mere affirmance of the

1

Republic of the Philippines v. Pimentel, 553 U.S. 851 (2008).

2
district court’s granting of summary judgment to the
city on the merits could not rectify this attack on the
municipal court’s sovereign immunity and dignitary
interests, given that by this point its policies and
customs had already been subjected to scrutiny in the
district court.
The Eleventh Circuit’s holding in Teagan also
demonstrates that this is not an isolated concern unique
to the City’s lawsuit, but rather is a recurring, nationwide problem that cries out for this Court’s intervention,
review, and resolution, particularly given the circuit
split discussed in the City’s petition. (Pet.20-27).
ARGUMENT
A. Teagan, like this case, was an indirect attack
on a state entity’s policies and customs under
McMillian2 without its participation.
In Teagan, the plaintiff brought a §1983 suit
against a Georgia municipality for alleged
constitutional violations arising out of the disposition
of misdemeanor charges in a municipal court.
(Supp.App.1-2). She alleged that the city, as part of an
unlawful policy or custom, failed to appoint her
counsel, unlawfully issued an arrest warrant for her
once she was unable to pay the $795 fine, incarcerated
her for longer than 72 hours upon her arrest, failed to
inquire whether she could afford to pay the fine,
imposed an additional $100 contempt charge upon her,
and executed the previously-suspended 60-day jail
sentence against her. (Supp.App.1-2, 4-7). It is thus
2

McMillian v. Monroe Cnty., 520 U.S. 781 (1997).

3
similar in substance to the lawsuit that Respondents
(“Motorists”) have brought against the City.
The Eleventh Circuit affirmed the district court’s
granting of summary judgment on the merits in favor
of the municipality. Relying on McMillian’s functionbased test, the Eleventh Circuit noted that “[w]hether
an official…acts on behalf of a municipality or the State
‘in a particular area, or on a particular issue’, is—labels
aside, a federal question that is ‘dependent on an
analysis of state law.’” (Supp.App.10) (quoting
McMillian, 520 U.S. at 786)). The “critical and
threshold question,” therefore, was whether the
municipal court’s judge, in carrying out the above
functions, acted on behalf of the municipality or the
State in taking “the actions which form[ed] the based
for the [alleged] constitutional violations….”
(Supp.App.9-10). As Georgia law plainly made the local
court a state entity under these circumstances, even
though it was formally labeled a “municipal court,” the
Eleventh Circuit affirmed the granting of summary
judgment in favor of the municipality. (Supp.App.2, 1216, 20).
But the matter did not end there. Having held that
the judge acted on behalf of the State under McMillian,
and that the municipal court was a state entity, the
Eleventh Circuit went on to admonish the municipal
court’s conduct by declaring it was “deeply troubled by
what happened to [the plaintiff] in the McDonough
municipal court.” (Supp.App. 20). One of the judges on
the panel filed a concurring opinion expressing similar
concerns. (Supp.App.21-30) (Jordon, J., concurring).

4
Thus, the Eleventh Circuit addressed the merits of
a sovereign entity’s policies and customs without that
entity’s participation in the litigation as a party. This
is exactly the type of situation that Pimentel sought to
avoid through the proper application of Rule 19. An
absent entity’s joinder is required if it “claims an
interest relating to the subject of the action and is so
situated that disposing of the action in the [entity’s]
absence may…as a practical matter impair or impede
the person’s ability to protect the interest….” Rule
19(a)(1)(B)(i). State entities, of their very nature, have
an interest in any indirect attacks on their policies and
customs, even if they would not be formally bound by a
ruling on the matter. See Mine Safety App. Co. v.
Forrestal, 326 U.S. 371, 373-375 (1945); Two Shields v.
Wilkinson, 790 F.3d 791, 796 (8th Cir. 2015).
The city in Teagan, as a named party, was not in a
position to protect the municipal court’s interests, as
“[i]f a defendant cannot be expected to articulate the
[sovereign’s] position in its absence…the prejudice to
the [sovereign] is obvious.” See Wilkinson, 790 F.3d at
799 (internal quotation marks omitted). While one
defense available to the city was that the plaintiff
suffered no constitutional violations in the first place,
another defense—which the city utilized—was that to
the extent any constitutional violations occurred, they
were the result of an unlawful “State practice or
custom, not a municipal practice or custom.” See Taylor
v. Cnty. of Pima, 913 F.3d 930, 937 (9th Cir. 2019)
(Graber, J., concurring) (citing McMillian, 520 U.S.
781) (emphasis in original). Accordingly, the city was in
no position to protect the municipal court’s interests as
a sovereign entity. See Wilkinson, 790 F.3d at 799

5
(“[The named, non-sovereign defendants] have strong
incentives to characterize any breach as resulting
solely from the government’s independent action and
judgment.”).
The municipal court in Teagan, as a sovereign
entity, was vested with this interest in not having its
liability “tried behind its back,” see Forrestal, 326 U.S.
at 375 (internal quotation marks omitted), as well as
the interest in not having the case proceed without its
participation. See Wichita and Aff. Tribes of Ok. v.
Hodel, 788 F.2d 765, 775-776 (D.C. Cir. 1986). This
interest should have required its joinder under Rule
19(a)(1)(B)(i) and dismissal of the case under Rule 19(b)
if joinder was legally impossible. Given how “[t]he
inquiry as to prejudice [the required-entity sovereign
would suffer if the case proceeded in its absence] under
Rule 19(b) is the same as the inquiry under [Rule
19(a)(1)(B)(i)] regarding whether continuing the action
will impair the absent party’s ability to protect its
interest,” Kickapoo Tribe v. Babbitt, 43 F.3d 1491, 1497
n.9 (D.C. Cir. 1995), the municipal court’s inability to
be joined due to its sovereign immunity should have
mandated the entire lawsuit’s dismissal. See Pimentel,
553 U.S. at 867 (ruling that if “the claims of the
sovereign are not frivolous, dismissal of the action must
be ordered where there is a potential for injury to the
interests of the absent sovereign.”). By proceeding in
the municipal court’s absence, both the district court
and the Eleventh Circuit in Teagan impaired its
ability, as a sovereign entity, to protect its dignitary
interests.

6
Rule 19 focuses on whether, as a practical matter, a
case may injure the interests of an absent, requiredentity sovereign. See Rule 19(a)(1)(B)(i). By declaring
that the municipal court acted unlawfully, despite it
not being a party to the lawsuit, the Eleventh Circuit
has, practically speaking, violated that court’s
dignitary interests as a sovereign entity by litigating
its liability behind its back. See Pimentel, 553 U.S. at
866-867; Forrestal, 326 U.S. at 373-375. It has now
created confusion and uncertainty as to the
constitutional validity of a sovereign entity’s policies
and customs. See Wilkinson, 790 F.3d at 796 (“Without
the participation of the United States, any
determination that particular lands had been illegally
titled would potentially cloud the validity of many of
the land grants approved by the government.”).
Even if the Eleventh Circuit in Teagan had declined
to opine on whether the municipal court’s policies and
customs were unconstitutional, this would not have
obviated the problem. The issue is not whether a
required-entity sovereign’s dignitary interest are, in
fact, violated in its absence, but rather whether “there
is a potential for injury to the interests of the absent
sovereign.” Pimentel, 553 U.S. at 867 (emphasis added).
Due to the relevant state law vesting policymaking
authority for all the actions at issue there with the
municipal court as a sovereign, state entity, it was
clear from the very start of Teagan that the litigation
had the potential to injure the local court’s interests as
a required-entity sovereign. The Eleventh
Circuit’s—and the district court’s—mere “consideration
of the merits was itself an infringement on…sovereign

7
immunity,” see Pimentel, 553 U.S. at 864, regardless of
the outcome.
Given how the city never moved for dismissal under
Rule 19 as a means of vicariously protecting the local
court’s sovereign immunity, see Fed.R.Civ.P. advisory
committee notes (1966), the Eleventh Circuit should
have sua sponte raised the matter, reversed the
granting of summary judgment, and remanded with
instructions to dismiss for failure to join a requiredentity sovereign. See Pimentel, 553 U.S. at 861;
Provident Trades. Bank & Trust Co. v. Patterson, 309
U.S. 102, 111 (1968). Indeed, the district court itself
should have sua sponte dismissed under Rule 19 at the
lawsuit’s very beginning, given that the joinder issues
were purely legal and consequently did not require the
resolution of any disputed fact, and given how this
Court has “repeatedly stressed the importance of
resolving immunity questions at the earliest possible
stage of the litigation.” See Wood v. Moss, 572 U.S. 744,
755 n.4 (2014) (brackets and internal quotation marks
omitted).
B. Teagan, like this case, demonstrates why an
interlocutory appeal must lie from a refusal to
dismiss for failure to join a required-entity
sovereign.
Teagan demonstrates why an interlocutory appeal
must lie, under the collateral order doctrine, from a
refusal to dismiss under Rule 19 for failure to join a
required-entity sovereign, as such a refusal
conclusively resolves a matter completely separate
from the merits on an issue effectively unreviewable

8
from a final judgment. See Microsoft v. Baker, 137 S.Ct.
1702, 1708 n.3 (2017).
Motorists will no doubt argue that Rule 19 cannot be
a matter completely separate from the merits, given how
the above analysis of Teagan required an examination of
the merits—that is, the issue of final policymaking
authority under McMillian—to determine whether the
municipal court did, in fact, have an interest in the
lawsuit’s subject matter such that Rule 19(a)(1)(B)(i)
made it a required-entity sovereign, thus mandating
dismissal under Rule 19(b). But this need to examine the
merits of the plaintiff’s claims to determine whether the
municipal court’s interests would potentially be harmed
in the lawsuit is no different from the need to examine
the merits of a Fourth Amendment lawsuit against a
police officer to determine if the officer is entitled to
qualified immunity. See, e.g., Siegert v. Gilley, 500 U.S.
226, 227 (1991) (ruling that the officer was entitled to
qualified immunity because the plaintiff’s “allegations,
even if accepted as true, did not state a claim for
violation of any rights secured to him under the United
States Constitution.”).
Indeed, Pimentel itself hinted at this similarity to
qualified immunity, noting that even though dismissal
Rule 19 is not an adjudication on the merits, Pimentel,
553 U.S. at 862, resolving the matter “may require
some preliminary assessment of the merits of certain
claims.” Id. at 868. If the need to conduct an initial
assessment of the merits means Rule 19 fails the
collateral order doctrine, then by that same rationale
qualified immunity must fail it as well. See Mitchell v.
Forsyth, 472 U.S. 511, 528-529, 529 n.10 (1985).

9
Finally, Teagan makes clear that a refusal to
dismiss for failure to join a required-entity sovereign is
effectively unreviewable on appeal from a final
judgment. Suppose that the city as the named
defendant had sought dismissal under Rule 19 at the
beginning of the case, the district court denied it,
discovery commenced, and then the district court
granted summary judgment on the merits in favor of
the city. This could not cure the damage the municipal
court’s interests had suffered through its policies and
customs being examined for liability, as by examining
the lawsuit’s ultimate merits, the district court had
violated the municipal court’s sovereign immunity.
That the Eleventh Circuit subsequently affirmed, and
in the process chastised the municipal court for its
supposedly illegal conduct, only added insult to injury
as far as the municipal court’s dignitary interests were
concerned. An interlocutory appeal from a refusal to
dismiss under Rule 19 is the only way to ensure a
situation like this never comes about. Such a refusal to
dismiss is “on all fours with orders” this Court has
“previously…held to be appealable under the collateral
order doctrine.” See Mohawk Ind., Inc. v. Carpenter,
558 U.S. 100, 115 (2009) (Thomas, J., concurring in
part and concurring in the judgment).
C. Teagan demonstrates that this is a recurring
problem of national importance warranting
this Court’s full review.
The concurring opinion in Teagan did not limit itself
to admonishing the municipal court. It also discussed
how, over the last several years, lawsuits similar to it
have sprung up throughout the country involving the

10
intersection of municipalities as non-sovereign, local
entities, and local courts that, depending on the
relevant state law, may in fact be sovereign entities,
despite their formal title as “municipal courts,” with
various results. (Supp.App.28-30) (listing cases).
Among other matters, the concurring opinion cited an
earlier order of the district court in this very lawsuit.
(Supp.App.29) (citing Fant v. City of Ferguson, 107
F.Supp.3d 1016, 1030-1032 (E.D. Mo. 2015) (Doc.19)).
There is now an ongoing, nation-wide effort to
litigate the liability of absent, required-entity
sovereigns behind their backs through an indirect
attack on their policies and customs. Under the
smokescreen of naming municipalities as the only
formal defendants, plaintiffs—including Motorists—are
attempting to circumvent the sovereign immunity
inherent in the fundamental structure of the U.S.
Constitution, see Alden v. Maine, 527 U.S. 706, 728-729
(1999), in many cases successfully. Unless this Court
steps in to resolve the matter under Rule 19, lawsuits
of this kind will continue unabated. In the context of
the State overseeing the operations of local, municipal
divisions of its trial courts, these lawsuits will empty
sovereign immunity of any practical meaning,
rendering it nothing more than a “[s]hape without
form, shade without colour, [p]aralysed force, gesture
without motion….” T.S. Eliot, The Hollow Men, (1925).
In one swoop, this Court can both (1) resolve the split
among the federal appellate courts on the question of
whether an interlocutory appeal lies from a refusal to
dismiss for failure to join a required-entity sovereign
under Rule 19, and (2) reinforce Pimentel by ruling that
the interests of a required-entity sovereign may not be

11
litigated behind its back under the guise of seeking to
impose §1983 liability on a municipality.
CONCLUSION
This Court should grant the City’s petition for a
writ of certiorari.
Respectfully submitted,
JOHN M. REEVES
Counsel of Record
REEVES LAW, LLC
3703 Watson Rd.
St. Louis, MO 63109
(314) 775-6985
reeves@reeves-law.org
RONALD A. NORWOOD
LEWIS RICE LLC
600 Washington Ave., Suite 2500
St. Louis, MO 63101
(314) 444-7759
rnorwood@lewisrice.com
Counsel for Petitioner
The City of Ferguson, Missouri

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix 1 Opinion and Concurring Opinions in
the United States Court of Appeals for
the Eleventh Circuit, No. 18-11060
Ziahonna Teagan v. The City of
McDonough, Georgia
(February 11, 2020) . . . . . Supp. App. 1

Supp. App. 1

APPENDIX 1
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-11060
D.C. Docket No. 1:15-cv-00607-ELR
[Filed February 11, 2020]
__________________________________________
ZIAHONNA TEAGAN,
)
Plaintiff-Appellant,
)
)
versus
)
)
THE CITY OF MCDONOUGH, GEORGIA, )
Defendant-Appellee.
)
_________________________________________ )
Appeal from the United States District Court
for the Northern District of Georgia
(February 11, 2020)
Before JORDAN, TJOFLAT and ANDERSON, Circuit
Judges.
PER CURIAM:
Ziahonna Teagan sued the City of McDonough,
Georgia, for claims related to her misdemeanor
proceedings in municipal court for failure to maintain
automobile liability insurance as required by Georgia

Supp. App. 2
law. She asserted federal claims under 42 U.S.C.
§ 1983 for violations of her Fourth, Sixth, and
Fourteenth Amendment rights, and a state-law claim
under Georgia law for false imprisonment. The district
court granted summary judgment in favor of the City,
ruling that the actions of the municipal court could not
be attributed to the City so as to impose § 1983
municipal liability under Monell v. Department of
Social Services, 436 U.S. 658 (1978), and its progeny.
We affirm the district court’s grant of summary
judgment on Ms. Teagan’s § 1983 claims. The
McDonough municipal court was exercising its judicial
power under Georgia law to adjudicate a state-law
offense—and not a violation of a city or county
ordinance—and therefore was not acting on behalf of
the City when it took the actions that Ms. Teagan
complains of.
But we do not affirm the final judgment in favor of
the City. The district court did not address Ms.
Teagan’s separate state-law claim for false
imprisonment, so we remand for further proceedings on
that claim.
I
This case is primarily about federal law, specifically
the principles for imposing municipal liability under
§ 1983 pursuant to Monell. Yet, as we have explained
a number of times, whether an individual or entity acts
on behalf of a municipality or the state generally turns
on an analysis of state law. See, e.g., Owens v. Fulton
Cty., 877 F.2d 947, 950 (11th Cir. 1989). So before we
get to the facts, we set out a bit of background on

Supp. App. 3
municipal courts in Georgia to provide context for Ms.
Teagan’s claims.
Municipal courts in Georgia are generally creatures
of local government. See Ga. Code Ann. § 36-32-1(a).
But municipal courts also have jurisdiction to
adjudicate state-law misdemeanor traffic offenses
pursuant to Georgia Code § 40-13-21(a)-(b) if the
defendant waives his or her right to a jury trial. See
Kolker v. State, 391 S.E.2d 391, 393–94 (Ga. 1990)
(holding that Article VI, § 1, ¶ 1 of the Georgia
Constitution “authorizes the General Assembly to vest
municipal courts with jurisdiction over state
misdemeanor offenses”). As the Georgia Supreme Court
has explained: “The [Georgia] General Assembly’s
exercise of its constitutional authority to enact
legislation vesting municipal courts with jurisdiction
over various state misdemeanor offenses . . . imbues
the municipal court with limited state judicial power
when it tries a defendant for violation of the state
misdemeanors the General Assembly has placed within
its jurisdiction.” Nguyen v. State, 651 S.E.2d 681, 684
(Ga. 2007), overruled on other grounds by Brown v.
Crawford, 715 S.E.2d 132 (Ga. 2011).
In Georgia, the failure to maintain automobile
liability insurance constitutes a state-law
misdemeanor. That offense is punishable by a fine of
between $200 and $1,000 and/or a term of
imprisonment of up to 12 months. See Ga. Code Ann.
§ 40-6-10(a)(4).

Supp. App. 4
A
On November 7, 2013, an officer cited Ms. Teagan
for failure to maintain automobile liability insurance,
which as noted is a misdemeanor under Georgia law.
Approximately six weeks later, she appeared before a
judge in the McDonough municipal court for
arraignment.
Ms. Teagan was one of several defendants present
in the courtroom for arraignment that day. The judge
collectively read to the entire group a statement
advising them of their constitutional rights, including
the right to a jury trial, the right to counsel, and the
right to request court-appointed counsel. The judge
further advised that anyone who did not understand
could request clarification. He did not, however,
conduct an individual colloquy with Ms. Teagan
regarding her rights. Nor did she waive those rights,
orally or in writing, at the arraignment.
When her case was called, Ms. Teagan pleaded not
guilty and orally advised the judge that she wanted a
bench trial. She also requested a continuance of her
trial, informing the court clerk that the continuance
would allow her sufficient time to obtain an attorney.
On March 19, 2014, Ms. Teagan appeared at her
bench trial before Donald Patten, the Chief Judge of
the McDonough municipal court. She was not
represented by counsel. Just before the trial
commenced, the bailiff instructed her to initial and sign
a form titled “Jury Trial Waiver.” This form purported
to waive her right to a jury trial as well as her right to
counsel. Chief Judge Patten also signed the form,

Supp. App. 5
attesting that Ms. Teagan had knowingly and willingly
waived her right to a jury trial. But he conducted no
additional inquiry of Ms. Teagan regarding her
understanding of the form or the voluntariness of her
waivers.
Proceeding pro se, Ms. Teagan cross-examined the
officer who issued the citation and who had testified for
the state. She also testified on her own behalf,
conceding that she had been driving without insurance.
Chief Judge Patten found her guilty of driving without
insurance and imposed a fine of $745, as well as a $50
penalty for being late to court.
Ms. Teagan informed Chief Judge Patten that she
was unable to pay the fine that day, but that she would
be able to do so by the following Friday—March 28,
2014. Chief Judge Patten then sentenced her to 60 days
in jail, suspended on the condition that she pay the
$795 fine by March 28.
B
On March 24, Ms. Teagan—again proceeding pro
se—filed a “Motion for Stay Pending Appeal” with the
municipal court, requesting the court to “grant a Stay
of [the] Court’s Order dated March 14, 2014 pending
appellate review[.]” Chief Judge Patten reviewed the
filing and determined that it was not in the proper
form to serve as a valid motion for appeal, but took no
action beyond instructing the deputy clerk to place it in
Ms. Teagan’s court file. No one at the municipal court
notified Ms. Teagan that her motion had effectively
been denied.

Supp. App. 6
When Ms. Teagan was unable to pay the $795 fine
by March 28, the municipal court clerk prepared an
application for an arrest warrant. Chief Judge Patten
then executed and issued the warrant at the same
time, imposing an additional $100 “contempt charge.”
Pursuant to the warrant, a deputy from the Henry
County Sheriff’s Office arrested Ms. Teagan at her
home on May 18, 2014, in front of her family and
neighbors. She was taken directly to the Henry County
Jail, where she was photographed, fingerprinted, and
issued a jail uniform.
Under Georgia law, Ms. Teagan should have been
taken before a municipal court judge “within 72 hours”
of her arrest. See Ga. Code Ann. § 17-4-26; Ga. Unif.
Mun. Ct. R. 20.1 (Dec. 2011); Tidwell v. Paxton, 651
S.E.2d 714, 715 (Ga. 2007). Yet she stayed in jail for 10
days—housed in a two-person cell with other inmates,
including some awaiting trial on felony charges—until
she was again brought before Chief Judge Patten on
May 28, 2014. 1
At her appearance on May 28, Chief Judge Patten
explained to Ms. Teagan—who was again without
counsel—that she had been incarcerated for her failure
to pay her fine by the agreed-upon March 28 deadline,
1

The purpose of Ms. Teagan’s May 28 appearance before Chief
Judge Patten is unclear. At his deposition, Chief Judge Patten
testified that he could not remember why Ms. Teagan was brought
before the municipal court at that time. The appearance was well
after the 72-hour time frame required by Georgia law, and Chief
Judge Patten explained that it was not his normal procedure to
order someone into court from the jail, unless it was specifically
requested or warranted under other special circumstances.

Supp. App. 7
and that she was therefore subject to the previously
suspended 60-day jail sentence. Chief Judge Patten did
not inquire into why Ms. Teagan had failed to pay the
fine or whether she had the ability to pay it. At the
conclusion of the appearance, Chief Judge Patten
ordered Ms. Teagan to be returned to the Henry
County Jail to serve the remainder of her 60-day
sentence.2
The following day, Ms. Teagan’s brother wrote a
check to the Henry County Sheriff for $895 to pay for
Ms. Teagan’s initial fine and the $100 “contempt
charge.” To be able to satisfy the fine, her brother drew
from the government benefits of Ms. Teagan’s
daughter, his own government benefits, and their rent
money. The Sheriff transferred the money to the City,
and Ms. Teagan was released on May 30, 2014.
C
In early 2015, Ms. Teagan sued the City of
McDonough in federal court. In her operative
complaint, she asserted federal claims under § 1983 for
violations of her Fourth, Sixth, and Fourteenth
Amendment rights, and a state-law claim for false
imprisonment. Specifically, she alleged that the
McDonough municipal court (1) violated her Due
Process and Equal Protection rights by imprisoning her

2

Ms. Teagan explained at her deposition that, at the time of the
trial, she had intended to secure a loan to pay the fine by the
March 28 deadline. She had stopped working in February,
however, and learned only after the trial that she would be unable
to secure a loan without proof of employment. She therefore filed
a motion to stay pending appeal.

Supp. App. 8
without determining the willfulness of her failure to
pay or her ability to pay; (2) ran afoul of the Sixth
Amendment by failing to secure a proper, individual
waiver of counsel from her and by failing to appoint
counsel; (3) violated the Fourth Amendment by
executing and issuing an invalid arrest warrant
unsupported by probable cause; (4) failed to conduct a
preliminary revocation hearing to determine whether
she had failed to comply with a condition of her
suspended sentence; (5) failed to bring her before a
judicial officer within 72 hours of her arrest and
incarceration, as required by Georgia law; and
(6) falsely imprisoned her in violation of Georgia Code
§ 51-7-20.
Both parties moved for summary judgment, which
the district court granted in favor of the City. The
district court ruled that all of the actions alleged in Ms.
Teagan’s complaint were taken by the McDonough
municipal court pursuant to its authority to act with
“limited state judicial power” to enforce state
misdemeanor laws under Georgia Code § 36-32-1(a)
(granting municipal courts “jurisdiction over the
violation of municipal ordinances and over such other
matters as are by general law made subject to the
jurisdiction of municipal courts”). The district court
relied on the Georgia Supreme Court’s decision in
Nguyen, 651 S.E.2d at 684, which explained that the
General Assembly, as permitted by the Georgia
Constitution, has given municipal courts “limited state
judicial power” to try a defendant for the violation of
certain state misdemeanor offenses. Because the
municipal court was not acting on behalf of the City,
the district court concluded that the City could not be

Supp. App. 9
held liable under § 1983 pursuant to Monell and its
progeny. The district court, however, did not separately
address Ms. Teagan’s state-law false imprisonment
claim.
II
Our review of the district court’s summary
judgment order is plenary. See, e.g., Jones v. Firestone
Tire & Rubber Co., 977 F.2d 527, 535 (11th Cir. 1992).
Summary judgment is appropriate if the record shows
that there are no genuine issues of material fact and
that the moving party is entitled to judgment as a
matter of law. See, e.g., Eberhardt v. Waters, 901 F.2d
1578, 1580 (11th Cir. 1990). As the parties have raised
no disputes over the material facts, this appeal
concerns only questions of law.
A
“Municipal liability under § 1983 is incurred only
where ‘a deliberate choice to follow a course of action is
made from among various alternatives by the official or
officials responsible for establishing final policy with
respect to the subject matter in question.’” Owens, 877
F.2d at 949–50 (citation omitted). To prove municipal
liability under § 1983, a plaintiff “must show that the
local government entity . . . has authority and
responsibility over the governmental function at
issue[.]” Grech v. Clayton Cty., 335 F.3d 1326, 1330
(11th Cir. 2003) (en banc). With respect to Ms. Teagan’s
§ 1983 claims against the City, therefore, the critical
and threshold question is whether the McDonough
municipal court, through Chief Judge Patten, was
acting on behalf of the City when it took the actions

Supp. App. 10
which form the basis for the constitutional violations
alleged by Ms. Teagan. If it was not, the City cannot be
held liable under § 1983. See McMillian v. Johnson, 88
F.3d 1573, 1578 (11th Cir. 1996) (“A threshold question
. . . is whether the official is going about the local
government’s business. If the official’s actions do not
fall within an area of the local government’s business,
then the official’s actions are not acts of the local
government.”), aff’d sub nom. McMillian v. Monroe
Cty., 520 U.S. 781 (1997).
Whether an official or entity acts on behalf of a
municipality or the state “in a particular area, or on a
particular issue,” is—labels aside—a federal question
that is “dependent on an analysis of state law.”
McMillian, 520 U.S. at 786. See also Grech, 335 F.3d at
1330. Although we have not yet addressed this
question with respect to municipal courts in Georgia,
our decision in Familias Unidas v. Briscoe, 619 F.2d
391 (5th Cir. 1980), provides a critical starting point.
In Familias Unidas, a Texas county judge in
Medina County, acting pursuant to the request of a
local school district, ordered an organization of
Mexican-American students and adults to disclose its
members. See id. at 396. The judge did so pursuant to
state law, specifically § 4.28 of the Texas Education
Code. See id. at 396–97. The organization and one of its
members then filed suit in federal court against the
former Texas governor, the county court judge, and the
superintendent and members of the board of trustees
of the school district (all in their individual and official
capacities). See id. at 394–95, 397. The plaintiffs sought
a declaration that § 4.28 was unconstitutional, an

Supp. App. 11
injunction against its implementation, and damages for
the members of the organization as a class. See id. at
397.
We ultimately concluded that § 4.28 violated the
First Amendment, and ruled that the individual
plaintiff was entitled to an award of nominal damages
not to exceed one dollar “based on the instant
application of the unconstitutional statute and the
resultant infringement of her First Amendment right
of association.” Id. at 402. We then turned to the
question of “who shall be required to pay this award.”
Id. at 403.
As relevant here, we surveyed Texas law and held
that the county judge’s compliance with the school
district’s request and issuance of the disclosure
demand did not “represent[ ] the official policy” of the
county. Id. at 404. Recognizing that a county judge
could act in ways that might constitute county policy
(e.g., the performance of certain administrative duties),
we explained that “the narrow authority delegated to
the county judge in [§] 4.28 . . . bears no relation to his
traditional role in the administration of county
government or the discretionary powers delegated to
him by state statute in aid of that role.” Id. “Instead,”
we continued, “his duty in implementing [§] 4.28, much
like that of a county sheriff enforcing a state law, may
more fairly be characterized as the effectuation of the
policy of the State of Texas embodied in that statute,
for which the citizens of a particular county should not
bear singular responsibility. Accordingly, under the
standards set forth in Monell we hold that Medina
County is not susceptible to liability under [§] 1983 for

Supp. App. 12
[the county judge’s] issuance of the disclosure
demands.” Id.
B
“The practical test articulated in Familias Unidas
. . . is whether the decisionmaker, by virtue of his
official conduct, serves as the ‘final authority or
ultimate repository of county power.’” Owens, 877 F.2d
at 950 (quoting Familias Unidas, 619 F.3d at 404). The
narrow question here is whether under Georgia law the
McDonough municipal court, through Chief Judge
Patten, acted on behalf of the state or the City when
adjudicating Ms. Teagan’s state-law misdemeanor
offense. As we explain, we conclude that Chief Judge
Patten acted on behalf of the state because he was
exercising his authority under state law to preside over
a state misdemeanor offense.3
3

Because this case does not present the question, we leave for
another day whether a municipal court judge acts on behalf of a
municipality when he or she exercises judicial authority with
respect to local ordinances enacted by the municipality. Compare
Walker v. City of Calhoun, 901 F.3d 1245, 1256 (11th Cir. 2018)
(concluding, at the preliminary injunction stage, that a Georgia
municipal court acted on behalf of the city in setting bail policy,
and therefore was not immune from § 1983 liability in an indigent
arrestee’s class action lawsuit challenging the court’s standing bail
order); ODonnell v. Harris Cty., 892 F.3d 147, 155–56 (5th Cir.
2018) (holding that a county judge was a policymaker for the
county in establishing an “unwritten, countywide process for
setting bail that violated both state law and the Constitution”);
Anela v. City of Wildwood, 790 F.2d 1063, 1066–67 (3d Cir. 1986)
(holding that a municipal court judge’s “cash bail schedule,” which
failed to comply with a state supreme court rule, constituted a
municipal practice for which the city could be held liable under
Monell).

Supp. App. 13
Familias Unidas generally teaches that a county or
municipal court judge acts on behalf of the state, and
not on behalf of the municipality, when he engages in
judicial acts for the purpose of applying or enforcing a
state law. See Lucas v. O’Loughlin, 831 F.2d 232, 235
(11th Cir. 1987) (“The Court [in Familias Unidas]
found that the action of the state judge upon which the
plaintiff sought to bind the county was an act of the
judge mandated by a state statute, rather than one of
the functions normal to the operation of a county judge.
The plaintiff, therefore, lost on his contention that the
county should be liable.”). Familias Unidas was, of
course, based on an examination of Texas law, so it is
not controlling. But an analysis of Georgia law leads to
the same result as in Familias Unidas.4
Ms. Teagan correctly points out that municipal
courts in Georgia are generally creatures of local
government—Georgia law, after all, gives
municipalities the power to create municipal courts,
appoint judges to those courts, and fix their
compensation. See, e.g., Ga. Code Ann. §§ 36-32-1(a) &
36-32-2(a). And the judges of the McDonough municipal
court may be removed from office by the mayor and city
council. See McDonough City Charter, Art. IV, § 411(d). But the question here is not whether municipal
courts in Georgia should be generally viewed as state or

4

We note—without passing on or endorsing their rationales—that
a number of circuits have come to the same conclusion with respect
to municipal or local courts adjudicating state-law offenses. See,
e.g., Eggar v. City of Livingston, 40 F.3d 312, 314–15 (9th Cir.
1994) (Montana); Johnson v. Moore, 958 F.2d 92, 93–94 (5th Cir.
1992) (Mississippi).

Supp. App. 14
municipal actors. It is, instead, is a more narrow one:
whether municipal courts in Georgia act on behalf of
the state or on behalf of the municipality when they
adjudicate misdemeanor offenses under state law. See
McMillian, 520 U.S. at 785–86 (“Thus, we are not
seeking to make a characterization of Alabama sheriffs
that will hold true for every type of official action they
engage in. We simply ask whether Sheriff Tate
represents the State or the county when he acts in a
law enforcement capacity.”).
Although the Georgia Supreme Court has
sometimes characterized municipal courts as municipal
bodies “discharging strictly municipal functions,” Ward
v. City of Cairo, 583 S.E. 2d 821, 823 (Ga. 2003), such
a definitive across-the-board classification is not
accurate. As noted earlier, municipal courts in Georgia
have jurisdiction to adjudicate state-law misdemeanor
traffic offenses pursuant to Georgia Code § 40-13-21(a)(b). See Kolker, 391 S.E.2d at 393 (holding that Article
VI, § 1, ¶ 1 of the Georgia Constitution “authorizes the
General Assembly to vest municipal courts with
jurisdiction over state misdemeanor offenses”). See also
Ga. Code Ann. § 36-32-3 (“All judges of all municipal
courts in this state shall have and are given the same
powers and authorities as magistrates in the matter of
and pertaining to criminal cases of whatever nature in
the several courts of this state.”). The Georgia Supreme
Court has explained that the “General Assembly’s
exercise of its constitutional authority to enact
legislation vesting municipal courts with jurisdiction
over various state misdemeanor offenses . . . imbues
the municipal court with limited state judicial power
when it tries a defendant for violations of the state

Supp. App. 15
misdemeanors the General Assembly has placed within
its jurisdiction.” Nguyen, 651 S.E.2d at 684 (emphasis
added).
Ms. Teagan was charged with driving without
insurance, which constitutes a state-law misdemeanor
offense. See Ga. Code Ann. § 40-6-10(a). Under Georgia
law and the rationale of Familias Unidas, Chief Judge
Patten was acting on behalf o f t h e sta t e w hen h e
presided over her case, found her guilty, sentenced her,
signed a warrant for her arrest, issued a $100
“contempt charge” for her failure to pay the fine, and
ordered her to serve the 60-day sentence that had been
suspended. See Familias Unidas, 619 F.2d at 404. And
because a conviction in a Georgia municipal court for a
state-law misdemeanor traffic offense is appealable to
the superior court, see Ga. Code Ann. § 40-13-28, we
cannot say that under Georgia law the City had
“control over” Chief Judge Patten or the McDonough
municipal court with respect to the adjudication of Ms.
Teagan’s state-law misdemeanor traffic offense. See
McMillian, 520 U.S. at 785 (“Our cases on the liability
of local governments under § 1983 instruct us to ask
whether governmental officials are final policymakers
for the local government in a particular area, or a
particular issue.”); Grech, 335 F.3d at 1332 (“[T]he
appropriate § 1983 inquiry under federal law is
whether . . . Clayton County, under Georgia law, has
control over the Sheriff in his law enforcement
function, particularly for the entry and validation of
warrants . . . and the training and supervision of his
employees in that regard.”). We therefore affirm the
district court’s grant of summary judgment to the City
on Ms. Teagan’s § 1983 claims.

Supp. App. 16
C
In his concurrence, Judge Tjoflat concludes that Ms.
Teagan’s § 1983 claims are barred by Heck v.
Humphrey, 512 U.S. 477 (1994). Having already
affirmed the grant of summary judgment in favor of the
City on the § 1983 claims, we need not address the
applicability of Heck.
First, the Supreme Court’s own language suggests
that Heck deprives the plaintiff of a cause of
action—not that it deprives a court of jurisdiction. See
id. at 489 (“We do not engraft an exhaustion
requirement upon § 1983, but rather deny the existence
of a cause of action. . . . Just as a cause of action for
malicious prosecution does not accrue until the
criminal proceedings have terminated in the plaintiff’s
favor . . . so also a § 1983 cause of action for damages
attributable to an unconstitutional conviction or
sentence does not accrue until the conviction or
sentence has been invalidated.”). As a result, some of
our sister circuits have concluded that Heck is an
affirmative defense and not a jurisdictional rule. See,
e.g., Carr v. O’Leary, 167 F.3d 1124, 1126 (7th Cir.
1999) (“The failure to plead the Heck defense in a
timely fashion was a waiver[.]”); Washington v. Los
Angeles Cty. Sheriff’s Dep’t, 833 F.3d 1048, 1056 (9th
Cir. 2016) (“[C]ompliance with Heck most closely
resembles the mandatory administrative exhaustion of
PLRA claims, which constitutes an affirmative defense
and not a pleading requirement.”). We have not
definitively answered that question. See Dixon v.
Hodges, 887 F.3d 1235, 1237–40 (11th Cir. 2018)
(describing Heck in dicta as “strip[ping] a district court

Supp. App. 17
of jurisdiction,” but reversing the district court’s
dismissal based on Heck without directly addressing
whether Heck is jurisdictional); Topa v. Melendez, 739
F. App’x 516, 518 & n.1 (11th Cir. 2018) (noting that
“other circuits have treated Heck as an affirmative
defense subject to waiver”).
Second, there is an open question as to whether
Heck applies to situations where, as here, a § 1983
plaintiff may no longer seek habeas relief because she
is no longer in custody. See Muhammad v. Close, 540
U.S. 749, 752 n.2 (2004) (“Members of the Court have
expressed the view that unavailability of habeas for
other reasons may also dispense with the Heck
requirement. . . . This case is no occasion to settle the
issue.”). It is unclear whether Heck would apply here,
as the length of imprisonment was so short “that a
petition for habeas relief could not have been filed and
granted while [Ms. Teagan] was unlawfully in custody.”
Morrow v. Fed. Bureau of Prisons, 610 F.3d 1271, 1272
(11th Cir. 2010). See also id. at 1273 (Anderson, J.,
concurring) (“[S]everal circuits have recognized an
exception from the Heck favorable termination
requirement for plaintiffs no longer in custody that
were precluded from obtaining habeas relief.”).
III
That leaves Ms. Teagan’s false imprisonment claim
under Georgia Code § 51-7-20. We conclude that the
district court erred in not separately addressing that
claim, and remand for further proceedings. See, e.g.,
Stillman v. Travelers Ins. Co., 88 F.3d 911, 914 (11th
Cir. 1996) (district court erred in granting final, rather
than partial, summary judgment where other issues

Supp. App. 18
and defenses should have survived and the summary
judgment order “did not even purport to adjudicate [a
party’s] other affirmative defenses”).
After ruling that the City could not be liable under
§ 1983 for the actions of Chief Judge Patten or the
McDonough municipal court, the district court stated
in a footnote that it did not need to address the parties’
other arguments. See D.E. 96 at 9 n.2. Insofar as the
district court meant to say that it did not need to
consider the City’s other arguments for rejecting Ms.
Teagan’s § 1983 claims, it was correct. But if the
district court believed that its Monell municipal
liability ruling necessarily disposed of Ms. Teagan’s
state-law false imprisonment claim, it was mistaken.
The Georgia tort of false imprisonment does not require
the sort of municipal liability analysis mandated under
§ 1983.
False imprisonment in Georgia requires a showing
of “the unlawful detention of the person of another, for
any length of time, whereby such person is deprived of
his personal liberty.” Ga. Code Ann. § 51-7-20. The
“only essential elements [of false imprisonment] are the
arrest or detention and the unlawfulness thereof.”
Miller v. Grand Union Co., 552 S.E. 2d 491, 494 (Ga.
Ct. App. 2001) (citations omitted).
The City urges us to resolve the false imprisonment
claim on the merits and argues that it fails because Ms.
Teagan was arrested on a “warrant which was properly
issued” by Chief Judge Patten. See Appellee’s Br. at 29
(citing Carruth v. Roberts, 375 S.E.2d 499, 501–02 (Ga.
Ct. App. 1988)). We decline the City’s invitation to
address the merits for the following reason.

Supp. App. 19
Ms. Teagan contends that the City, through Chief
Judge Patten, committed the tort of false imprisonment
when it arrested her on a facially invalid warrant and
without a finding that she had willfully failed to pay
the fine. See Appellant’s Br. at 29–30. For example, she
asserts that there is no such thing as an offense for
“failure to pay a fine” under state law or under the
City’s ordinances. See id. at 29. And if there was no
such offense, she continues, there could not be any
probable cause for her arrest. See id. Because there are
some Georgia cases suggesting that the invalidity of a
warrant may permit a false imprisonment claim, we
think it is best for the district court to consider that
claim in the first instance. See, e.g., Franklin v. Consol.
Gov’t of Columbus, 512 S.E.2d 352, 355 (Ga. Ct. App.
1999) (rejecting false imprisonment claim because
arrest was based on a warrant and “there [wa]s no
evidence of invalid process”); Ridgeview Inst., Inc. v.
Handley, 481 S.E.2d 531, 533 (Ga. Ct. App. 1997) (“An
action for false imprisonment will lie where a person is
unlawfully detained under a void process, or under no
process at all, and can not be maintained where the
process is valid[.]”) (citation and internal quotation
marks omitted); Stephens v. Big Apple Supermkts. of
Rome, Inc., 204 S.E.2d 805, 806 (Ga. Ct. App. 1974)
(“As the district attorney’s affidavit demonstrates that
the arrests complained of were founded upon warrants,
and as there is no allegation that the warrants are not
valid, there was no error in granting defendants’
motion for summary judgment on the false
imprisonment averments.”).

Supp. App. 20
IV
We are deeply troubled by what happened to Ms.
Teagan in the McDonough municipal court. She, like
all other citizens of that City, deserved better. But
given Georgia law and the rationale of our decision in
Familias Unidas, Chief Judge Patten was acting on
behalf of the state, and not on behalf of the City, when
he took the actions complained of in the course of
adjudicating Ms. Teagan’s state-law misdemeanor
offense. We therefore affirm the district court’s grant of
summary judgment to the City on Ms. Teagan’s § 1983
claims.
With respect to Ms. Teagan’s state-law false
imprisonment claim, the district court erred by not
separately addressing it. As a result, we reverse the
grant of summary judgment on that claim and remand
for further proceedings.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED.

Supp. App. 21
JORDAN, Circuit Judge, concurring:
I join the court’s opinion. The City of McDonough
cannot be held liable under 42 U.S.C. § 1983 because
the municipal court was not acting on its behalf when
adjudicating Ms. Teagan’s state-law misdemeanor for
failing to maintain automobile liability insurance.
I write separately, however, to express my concern
that the McDonough municipal court acted
unconstitutionally by jailing Ms. Teagan for failing to
pay a fine without determining whether her failure to
pay was willful. This practice, which does not appear to
be isolated throughout municipal courts in Georgia,
flouts the venerable and long-standing principle that
debtors’ prisons are unconstitutional.
*******
“There can be no equal justice where the kind of
trial a man gets depends on the amount of money he
has.” Griffin v. Illinois, 351 U.S. 12, 19 (1956). Based
on this understanding, the Supreme Court held in
Bearden v. Georgia, 461 U.S. 660, 672–73 (1983), that
revoking an indigent defendant’s probation for failure
to pay a fine, without inquiring into the reasons for the
failure to pay, violates the “fundamental fairness
required by the Fourteenth Amendment.” The Court
explained that if “the probationer has willfully refused
to pay the fine . . . when he has the means to pay,” or
“fail[ed] to make sufficient bona fide efforts to seek
employment or borrow money in order to pay the fine,”
then imprisonment may be justified. See id. at 668.
“But if the probationer has made all reasonable efforts
to pay the fine or restitution, and yet cannot do so

Supp. App. 22
through no fault of his own, it is fundamentally unfair
to revoke probation automatically without considering
whether adequate alternative methods of punishing a
defendant are available.” Id. at 668–69. “Only if
alternate measures are not adequate to meet the
State’s interests in punishment and deterrence may the
court imprison a probationer who has made sufficient
bona fide efforts to pay.” Id. at 672.
Bearden was based on two earlier Supreme Court
cases, Williams v. Illinois, 399 U.S. 235 (1970), and
Tate v. Short, 401 U.S. 395 (1971)—both of which
prohibit jailing a criminal defendant “solely because of
his indigency.” Tate, 401 U.S. at 398. See also Williams,
399 U.S. at 242. In Williams, the Court held that a
defendant could not be imprisoned for longer than the
statutory maximum for his offense based on his
inability to pay a fine or court costs. See 399 U.S. at
239–41. In Tate, the defendant was initially fined for
traffic offenses, but when he was unable to pay the
fines, he was committed to a municipal prison. See 401
U.S. at 396–97. The Court held that “the Constitution
prohibits the State from imposing a fine as a sentence
and then automatically converting it into a jail term
solely because the defendant is indigent and cannot
forthwith pay the fine in full.” Id. at 398.
Many decades ago, the former Fifth Circuit likewise
“accept[ed] the principle that imprisonment solely
because of indigent status is invidious discrimination
and not constitutionally permissible.” Pugh v.
Rainwater, 572 F.2d 1053, 1056 (5th Cir. 1978) (en
banc). It has also held that imposing an alternative
sentence “requiring an indigent defendant to pay a fine

Supp. App. 23
forthwith or serve a specified number of days in jail” is
unconstitutional. See Frazier v. Jordan, 457 F.2d 726,
726–730 (5th Cir. 1972). We, of course, are bound by
Bearden, Frazier and Rainwater. See, e.g., Walker v.
City of Calhoun, 901 F.3d 1245, 1259 (11th Cir. 2018)
(applying Bearden and Rainwater).
Georgia courts have also repeatedly applied
Bearden. See, e.g., Massey v. Meadows, 321 S.E.2d 703,
704 (Ga. 1984) (“[A] defendant’s probation may not be
revoked or withheld because of his failure to pay the
fine without a showing of willfulness on his part or
inadequacy of alternative punishments.”); Gaither v.
Inman, 322 S.E.2d 242, 243 (Ga. 1984) (applying
Bearden and Massey to a conditionally suspended
sentence); Johnson v. State, 707 S.E.2d 373, 375 (Ga.
Ct. App. 2011) (holding that the defendant’s probation
could not be revoked for failing to pay court-ordered
fines and fees without the trial court first making a
finding as to willfulness, even though the defendant
entered a negotiated plea, because the court
unilaterally imposed the fines). In addition, Georgia’s
own constitution bans debtors’ prisons. See Ga. Const.
art. 1, § 1, para. XXIII (“There shall be no
imprisonment for debt.”). See also Messenger v. State,
72 S.E.2d 460, 461 (Ga. 1952) (explaining that the
Georgia Constitution “commands the three
departments of the government . . . to refrain from
imprisoning a single person for debt.”). And longstanding Georgia precedent makes clear that municipal
courts cannot use imprisonment to coerce the payment
of a fine. See Brieswick v. City of Brunswick, 51 Ga.
639, 642–43 (1874) (holding that a municipal court did
not have the power or authority to “coerce the payment

Supp. App. 24
of the fine imposed by imprisonment”). What happened
to Ms. Teagan is therefore impossible to defend and
difficult to understand.
*******
As set forth in the court’s opinion, Chief Judge
Donald Patten of the McDonough municipal court
found Ms. Teagan guilty of driving without insurance
and imposed a $745 fine, as well as a $50 penalty for
being late to court. Ms. Teagan informed Chief Judge
Patten that she was unable to pay the fine that day,
but that she would be able to do so by the following
Friday, March 28, 2014. After learning that Ms.
Teagan could not pay her fine that day, Chief Judge
Patten sentenced her to 60 days in jail, suspended on
the condition that she pay the $795 fine by March 28.
This is exactly what the Supreme Court prohibited
in Tate: “imposing a fine as a sentence and then
automatically converting it into a jail term solely
because the defendant is indigent and cannot forthwith
pay the fine in full.” 401 U.S. at 398. As the Supreme
Court explained, “[i]mprisonment in such a case is not
imposed to further any penal objective of the State. It
is imposed to augment the state’s revenues but
obviously does not serve that purpose; the defendant
cannot pay because he is indigent and his
imprisonment, rather than aiding collection of the
revenue, saddles the State with the cost of feeding and
housing him for the period of his imprisonment.” Id. at
399. It also contravenes Georgia’s own precedent that
a municipal court cannot coerce a fine by
imprisonment. See Brieswick, 51 Ga. at 642–43.

Supp. App. 25
Here, as in Tate, sentencing Ms. Teagan to
jail—when Chief Judge Patten initially was only going
to impose a fine—served no legitimate penological
purpose. See 401 U.S. at 399. As suggested in Tate, it
seems more likely that the suspended jail term was
imposed to coerce payment and raise City revenues, as
the City profits from the collection of fines. Ms. Teagan
was convicted of failing to maintain automobile liability
insurance in violation of Georgia Code § 40-6-10. But
under Georgia law, when a municipal court tries
offenses under § 40-6-10, “[a]ny fines . . . arising from
the prosecution of such cases shall be retained by the
municipality and shall be paid into the treasury of such
municipality.” Ga. Code Ann. § 36-32-7(b). Indeed, Ms.
Teagan presented evidence demonstrating that since
2012, the McDonough municipal court has generated
over $7.4 million in revenue for the City from the
payment of fines, averaging over 10 percent of the
City’s general-fund revenues for that time period.
Given Ms. Teagan’s experience, one wonders how much
of that sum was secured through unconstitutional
means.
After Ms. Teagan did not pay the fine, she was
arrested and jailed on May 18, 2014, without any
hearing to determine whether her failure to pay was
willful. Even at her subsequent appearance ten days
later, Chief Judge Patten made no attempt to
determine whether Ms. Teagan had the ability to pay
the fine. These actions by Chief Judge Patten directly
contravened the Supreme Court’s holding in Bearden
that imprisoning a defendant for failure to pay a fine,
without inquiring into the reasons for the failure to pay
or considering alternative measures, violates the

Supp. App. 26
“fundamental fairness required by the Fourteenth
Amendment.” 461 U.S. at 672–73.
Had there been a hearing, Ms. Teagan could have
shown that she did not willfully fail to pay the fine. In
her unrebutted deposition testimony, Ms. Teagan
explained that she lost her job in February of 2014, but
that at the time of the bench trial on March 19, 2014,
she thought that she would be able to secure a loan to
pay the fine. When she went to obtain the loan,
however, she found out that she could not secure the
loan without proof of employment.
That Ms. Teagan did not willfully fail to pay is
further evidenced by the fact that she filed a pro se
“Motion for a Stay Pending Appeal” on March 24, days
before the March 28 deadline. Although Chief Judge
Patten determined that the motion was not in the
proper form, he did not issue an order denying the
motion. And no one at the municipal court notified Ms.
Teagan that her motion, though filed, had effectively
been denied. Thus, when her fine came due on
March 28, Ms. Teagan reasonably believed that her
sentence (including the payment of the fine) had been
stayed pending appellate review.
Adding further insult to injury, not only was Ms.
Teagan jailed without a hearing, but Chief Judge
Patton added an additional $100 “contempt charge” to
her fine. I know of no Georgia law authorizing a
municipal court to impose additional fees against an
indigent defendant as punishment for his or her failure
to pay a fine. A Georgia statute gives municipal courts
the power and authority “[t]o impose fines upon
persons convicted of . . . offenses, with the alternative

Supp. App. 27
of other punishment allowed by law,” e.g., ordering
community service, “in the event such fines are not
paid.” See Ga. Code Ann. § 36-32-5 (emphasis added).
In other words, if a person is unable to pay a fine, the
municipal court may impose “other,” or different,
punishment—not an additional fine. See American
Heritage College Dictionary 967 (3d ed. 1993) (defining
“other” as “[d]ifferent from that or those implied or
specified”).
*******
Ms. Teagan’s ordeal seems to exemplify a broader
problem. The City of McDonough is not the only
municipality in Georgia that raises a significant
portion of its revenue from collecting fines—or that
collects these fines through its municipal court’s
vigorous enforcement of traffic violations. See, e.g.,
Dick M. Carpenter II, Ph.D., Kyle Sweetland, &
Jennifer McDonald, Inst. for Justice, The Price of
Taxation by Citation: Case Studies of Three Georgia
Cities that Rely Heavily on Fines and Fees 4–5 (2019)
(examining three Georgia cities which generate on
average 14–25% of their revenues from fines and fees,
and which use municipal courts as “highly efficient
revenue collectors”).
Nor is Georgia the only state where local
governments collect a significant portion of their
revenues from fines. See U.S. Comm’n on Civil Rights,
Targeted Fines and Fees Against Communities of Color:
Civil Rights and Constitutional Implications 21–22
(2017) (discussing municipalities throughout the
country that receive 10% or more of their revenue from
fines and fees). Some commentators have noted that

Supp. App. 28
municipal courts’ aggressive enforcement of the
payment of fines—including unconstitutionally
imprisoning defendants for their debt—has been on the
rise since the 2008 recession, when local governments
became increasingly strapped for funds. See, e.g.,
Christopher D. Hampson, The New American Debtors’
Prison, 44 Am. J. Crim. L. 1, 8 (2017) (noting that the
problem of imprisonment for debt “has become
exacerbated since the Great Recession, when many
municipalities were driven by financial need to look for
alternative sources of money”); Roopal Patel & Meghna
Philip, Brennan Ctr. for Justice, Criminal Justice Debt:
A Toolkit for Action 2 (2012) (“As states have become
increasingly strapped for funds, some have looked to a
most unlikely revenue source: the disproportionately
poor people involved in the criminal justice system. . . .
[I]ncreasing numbers of states are creating new
pathways to imprisonment based solely on criminal
justice debt.”).
Not surprisingly, multiple lawsuits have been filed
in our Circuit challenging these types of practices on
various grounds, and in at least some cases, district
courts have denied motions to dismiss. See, e.g.,
Chapman v. City of Clanton, No. 2:15-cv-125, 2017 WL
1508182, at *2–5 (M.D. Ala. Apr. 25, 2017) (denying in
part motion to dismiss claims that the city violated the
plaintiffs’ constitutional rights by jailing them for their
inability to pay fines without inquiring as to their
indigency); Brucker v. City of Doraville, 391 F. Supp. 3d
1207, 1215–17 (N.D. Ga. July 9, 2019) (denying motion
to dismiss the plaintiffs’ due process claim, which
asserted that the city’s reliance on fines, fees, and
forfeitures created a conflict of interest for municipal

Supp. App. 29
court judges, who are financially incentivized to convict
defendants appearing before them); Ray v. Judicial
Corr. Servs., No. 2:12-CV-02819, 2013 WL 5428360, at
*15 (N.D. Ala. Sept. 26, 2013) (denying in part the
city’s motion to dismiss constitutional claims
challenging fine collection practices that resulted in the
plaintiffs being jailed without an indigency
determination). Some courts in other parts of the
country have likewise allowed these types of claims to
proceed past the dismissal or summary judgment
stages, or even granted summary judgment in favor of
the plaintiffs. See, e.g., Alkire v. Irving, 330 F.3d 802,
816–19 (6th Cir. 2003) (reversing the district court’s
grant of summary judgment in favor of the defendants
on the plaintiff’s claims that his Thirteenth and
Fourteenth Amendment rights were violated when he
was imprisoned for failing to pay court costs and fees
without any inquiry into his ability to pay); Fant v. City
of Ferguson, 107 F. Supp. 3d 1016, 1030–32 (E.D. Mo.
2015) (holding that the plaintiffs pleaded sufficient
facts to state a plausible claim that the city’s policy and
practice of jailing them for their inability to pay fines
violated the Due Process and Equal Protection
Clauses); Doe v. Angelina Cty., 733 F. Supp. 245,
255–57 (E.D. Tex. 1990) (granting the plaintiff’s motion
for partial summary judgment on his § 1983 due
process claim against the county, which asserted that
he was unlawfully imprisoned for failing to pay a fine
as a result of a county’s policy); Kneisser v. McInerney,
No. 1:15-cv-07043-NLH-AMD, 2018 WL 1586033, at
*13–14 (D.N.J. Mar. 30, 2018) (granting the plaintiff’s
motion for partial summary judgment against the city
on his claims that his constitutional rights were
violated by the municipal court when he was sent to

Supp. App. 30
jail because he was unable to pay a fine imposed for a
littering offense).
But what happened to Ms. Teagan should not be a
common occurrence. “Courts are supposed to dispense
justice, not be looked upon as cash registers for the
government.” ACLU, In For a Penny: The Rise of
America’s New Debtors’ Prisons 55 (2010) (citation and
internal quotation marks omitted). Jailing a defendant
for failing to pay a fine—without any determination
that her failure to pay was willful—is a flagrant
violation the U.S. Constitution. See Bearden, 461 U.S.
at
668–69. A municipal court cannot shirk its
duties to protect indigent defendants’ constitutional
rights in order to line its city’s coffers.

Supp. App. 31
TJOFLAT, Circuit Judge, specially concurring:
I concur in the judgment of the Court. I write
separately to state that I believe Teagan’s 42 U.S.C.
§ 1983 claims are barred under Heck v. Humphrey, 512
U.S. 477, 114 S. Ct. 2364 (1994), which requires
Teagan to prove that her “conviction or sentence has
been reversed on direct appeal, expunged by executive
order, declared invalid by a state tribunal authorized to
make such determination, or called into question by a
federal court’s issuance of a writ of habeas corpus”
before her claims are cognizable under § 1983. Id. at
487, 114 S. Ct. at 2372. Because Teagan has not offered
such proof, the City is entitled to summary judgment
on her § 1983 claims regardless of whether the actions
of the municipal court could be attributed to the City
under Monell.

